                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                                           Independent Auditors’ Report


Managing Director
Federal Communications Commission

Inspector General
Federal Communications Commission

We have audited the accompanying consolidated balance sheet of the Federal Communications
Commission (FCC) as of September 30, 2009, and the related consolidated statements of net cost, changes
in net position, and custodial activity, and combined statement of budgetary resources (hereinafter referred
to as “consolidated financial statements”) for the year then ended. These consolidated financial statements
are the responsibility of the FCC’s management. Our responsibility is to express an opinion on these
consolidated financial statements based on our audit. The accompanying consolidated financial statements
of FCC as of September 30, 2008, were audited by other auditors whose report thereon dated
November 13, 2008, expressed an unqualified opinion on those consolidated financial statements.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the consolidated financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the FCC’s internal
control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated financial
statements, assessing the accounting principles used and significant estimates made by management, as
well as evaluating the overall consolidated financial statement presentation. We believe that our audit
provides a reasonable basis for our opinion.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the Federal Communications Commission as of September 30, 2009, and
its net costs, changes in net position, budgetary resources, and custodial activity for the year then ended in
conformity with U.S. generally accepted accounting principles.

The information in the Management’s Discussion and Analysis, and Required Supplementary Information
sections is not a required part of the consolidated financial statements, but is supplementary information
required by U.S. generally accepted accounting principles. We have applied certain limited procedures,
which consisted principally of inquiries of management regarding the methods of measurement and
presentation of this information. However, we did not audit this information and, accordingly, we express
no opinion on it.




                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
The information in the Message from the Chairman and Other Accompanying Information sections are
presented for purposes of additional analysis and are not required as part of the consolidated financial
statements. This information has not been subjected to auditing procedures and, accordingly, we express no
opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports dated November 12,
2009, on our consideration of the FCC’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and other matters. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting
or on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audit.




November 12, 2009
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




            Independent Auditors’ Report on Internal Control Over Financial Reporting


Managing Director
Federal Communications Commission

Inspector General
Federal Communications Commission

We have audited the consolidated balance sheet of the Federal Communications Commission (FCC) as of
September 30, 2009 and the related consolidated statements of net cost, changes in net position, and
custodial activity, and combined statement of budgetary resources (hereinafter referred to as “consolidated
financial statements”) for the year then ended, and have issued our report thereon dated November 12,
2009. The accompanying consolidated financial statements of FCC as of September 30, 2008, were
audited by other auditors whose report thereon dated November 13, 2008, expressed an unqualified opinion
on those consolidated financial statements.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the consolidated financial statements are free of material misstatement.

The management of the FCC is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2009 audit, we considered the FCC’s internal control over
financial reporting by obtaining an understanding of the FCC’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the consolidated
financial statements. To achieve this purpose, we did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The objective of
our audit was not to express an opinion on the effectiveness of the FCC’s internal control over financial
reporting. Accordingly, we do not express an opinion on the effectiveness of the FCC’s internal control
over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph and was not designed to identify all deficiencies in the internal control over financial
reporting that might be deficiencies, significant deficiencies, or material weaknesses.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance. A material weakness is a deficiency, or
combination of deficiencies, in internal control, such that there is a reasonable possibility that a material
misstatement of the entity’s financial statements will not be prevented, or detected and corrected on a
timely basis.


                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
In our fiscal year 2009 audit, we identified certain deficiencies in internal control over financial reporting
that we consider to be significant deficiencies, described in Exhibit I. Exhibit II presents the status of prior
years’ findings and recommendations.

The FCC’s response to the findings identified in our audit are presented in the Agency Financial Report.
We did not audit the FCC’s response and, accordingly, we express no opinion on it.

We noted certain additional matters that we have reported to management of the FCC in a separate letter
dated November 12, 2009.

This report is intended solely for the information and use of the FCC’s management, the FCC’s Office of
Inspector General, OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not
intended to be and should not be used by anyone other than these specified parties.




November 12, 2009
                                                                                                EXHIBIT I

                                   SIGNIFICANT DEFICIENCIES

Financial Reporting Process

The FCC consolidated financial statements present the financial results of the following reporting
components: The Commission (FCC), the Universal Service Fund (USF), the Telecommunications
Relay Services Fund (TRS), and the North American Numbering Plan (NANP). The FCC has
oversight responsibilities over the other components. USF, TRS, and NANP are administered by
other organizations independent of the FCC. Each component entity is responsible for preparing
its trial balance. The FCC’s Office of the Managing Director, Division of Financial Operations, is
responsible for reviewing the component entities’ trial balances before including that financial data
in the FCC consolidated financial statements.

During our fiscal year 2009 internal control and substantive test work procedures, we observed that
the FCC reporting component entities’ current financial systems and processes are not capable of
achieving the financial system integration standards set forth within OMB Circular A-127. These
standards require that the consolidated financial statements be prepared from an accounting system
that is an integral part of a financial management system containing sufficient structure, effective
internal control and reliable data. Many of the FCC’s significant transactions are tracked on Excel
spreadsheets and recorded into the general ledger at a summary level. Significant examples of this
include (all amounts in thousands as of 6/30/09):

    •        Spectrum Auction Activities for FCC – $16,790,302

    •        Investment Transactions for USF and TRS – $5,760,304

    •        Deferred Revenues for FCC – $463,175

    •        Accounts Payable Transactions for USF – $44,178

    •        Loans Transactions for FCC – $112,711

    •        Budgetary Transactions/Entities for FCC, USF and TRS – $6,432,027

    •        Property Transactions for FCC – $31,248

    •        On-Top Financial Statement Adjustments - $1,195,413

    •        Accounts Receivable maintained outside of the AR Subsidiary Ledger for USF – $352,843

Inadequate financial system integration and the continued use of manual reporting processes
increases the risk of potential errors in the consolidated financial statements going undetected by
management, and results in non-compliance with OMB guidance.

Recommendations

        1.     Implement a financial system that is fully integrated and has the ability to record
               proprietary and budgetary transactions on a transactional basis and complies with the
               requirements set forth in OMB Circular A-127. The system should be flexible to
               accommodate new accounting requirements issued by FASAB, OMB and Treasury.
               (Updated)
2.   Develop a standard set of transaction codes to process all routine transactions and to
     allow automated, timely, and accurate recording for all recurring entries that are
     currently entered manually. (Updated)
3.   Develop an electronic integration between the subsidiary systems and the FCC financial
     management system to enable FCC component entities to process accounting
     transactions or report financial data efficiently and effectively. (Updated)
Information Technology Controls

As reported in FY 2008, the FCC needs to improve its entity-wide security program. An effective
security program embodies the organization’s internal control responsibilities with respect to
securing its IT infrastructure and services. OMB has defined standards within OMB, Circular No.
A-123, Management’s Responsibility for Internal Control, related to control environment, risk
assessment, monitoring, information and communication, and internal control activities. For
purposes of financial reporting, management is responsible for developing and maintaining internal
control activities that comply with OMB standards to ensure reliability of financial reporting.

We identified deficiencies in the FCC’s control environment, risk assessment, control activities,
and monitoring as it relates to securing FCC’s information technology infrastructure. The
application of IT is pervasive throughout the FCC and as a result these deficiencies may impact the
FCC’s ability to comply with OMB’s internal control objectives for financial reporting. We have
previously reported these deficiencies to FCC management in more detail. Each of the sections
below summarizes the reported control deficiencies.

Control Environment

OMB requires management to clearly identify areas of authority and responsibility and
appropriately delegate the authority and responsibility throughout the agency. We noted that FCC
management had not appointed a Senior Agency Information Security Officer (SAISO) dedicated
to planning and overseeing the execution of the FCC’s Security Program. In addition, we noted that
the FCC had not formally determined and clearly defined its responsibilities with respect to
oversight of the USAC security program. Currently, the FCC does not consistently exercise and
document oversight of USAC’s IT Security program although USAC collects and maintains data
on behalf of the FCC.

Risk Assessment

OMB requires management to identify internal and external risks that may prevent the organization
from meeting its objectives. We noted that the FCC had not conducted risk assessments for its
information systems in accordance with the guidance from National Institute of Standards and
Technology (NIST) Special Publication (SP) 800-30, Risk Management Guide for Information
Technology Systems, although the FCC’s risk assessment reports cite NIST SP 800-30 as
guidance. Specifically, FCC’s risk assessment reports do not include steps to identify threats and
determine risks. In addition, we noted that a number of risk assessments for components of the
FCC’s general support system were outdated. We also noted that risk assessments for two
applications that authenticate users outside of the FCC, did not map to the required assurance
levels in OMB Memorandum 04-04 and the required e-authentication controls in NIST SP 800-63,
Electronic Authentication Guideline.

Control Activities

OMB requires internal control to be in place over information systems in the form of general and
application control. General control applies to all information systems such as servers, the network
and end-user environments, and includes agency-wide security program planning, management,
control over data center operations, and system software acquisition and maintenance. Due to the
rapid changes in information technology, controls must also adjust to remain effective. Required
control activities include policies, procedures and mechanisms in place to help ensure that agency
objectives are met. Several examples of such mechanisms include: proper segregation of duties
(separate personnel with authority to authorize a transaction, process the transaction, and review
the transaction); physical controls over assets; proper authorization; and appropriate documentation
and access to that documentation. Based on our procedures performed we noted the following
deficiencies in FCC’s general control activities related to the FCC security program, access
controls, and change controls:

Security Program

Procedures for completing a certification and accreditation (C&A) package were in draft form and
did not contain detailed requirements and procedures for creating a C&A package in accordance
with NIST guidance.

System security plans for several systems did not document controls that mapped to the
recommended NIST SP 800-53, Recommended Security Controls for Federal Information
Systems, minimum baseline controls.

An independent certification agent did not perform security assessments of FCC management and
operational controls to support the C&A package of FCC’s major applications and general support
systems.

One system was placed in operation without C&A and the general support system had not been
certified and accredited within the last three years.

Access Controls

The FCC’s controls to restrict physical and logical access to FCC systems had a number of
deficiencies. One major application lacked system documentation. Controls for limiting physical
access to computer rooms were not sufficiently formalized. The FCC’s user account management
controls were not operating effectively to prevent logical access from being granted to users who
should not have access and to remove access from users who no longer needed it. The resolution of
identified vulnerabilities was not documented. Finally, the FCC’s password policies were
inconsistently applied.

Change Control

Access of developers to production was not properly restricted.

Not all application changes were tested and approved before their migration to production and the
FCC could not provide documentation on all configuration management changes.

Monitoring

OMB requires that monitoring of the effectiveness of internal control should occur in the normal
course of business. Periodic assessments should be integrated as part of management’s continuous
monitoring of internal control, which should be ingrained in the agency’s operations. We noted that
FCC management did not perform annual security assessment testing of operational and
management controls to support its annual Federal Information Security Management Act of 2002
(FISMA) report to OMB and to satisfy FISMA's ongoing monitoring requirements.

OMB also requires that deficiencies found in internal control be reported to the appropriate
personnel and management responsible for that area. Deficiencies identified, whether through
internal review or by an external audit, should be evaluated and corrected. A systematic process
should be in place for addressing deficiencies. We noted that the FCC did not appear to be using its
Plans of Action and Milestones (POA&Ms) as an effective management tool for overseeing the
remediation of security deficiencies. In addition, we noted that the FCC POA&Ms did not
prioritize IT security deficiencies to help ensure significant IT security deficiencies are addressed
in a timely manner and receive appropriate resources. Also, we noted that deficiencies
documented in POA&MS were not addressed in a timely manner, and that the FCC did not
document adequate rationale for delays or changes in milestones. Lastly, we noted that deficiencies
in system-level POA&Ms were not documented consistent with OMB and NIST guidance.

Recommendations

The FCC strengthen its security program oversight and planning by:
      4.   appointing a Senior Agency Information Security Officer (SAISO) dedicated to
           planning, implementing and monitoring the Commission’s security program; (Updated)
      5.   formally documenting its responsibilities for directing and overseeing the information
           security programs for information systems that collect and maintain FCC data, but are
           not operated by the FCC, to ensure they are administered consistent with all relevant
           FCC, NIST and OMB requirements and instructions; (Updated)
      6.   revising and finalizing procedures for completing a C&A package in accordance with
           NIST guidance. Policies and procedures should require: that security assessment
           testing cover a representative subset of controls and be performed and directed by
           personnel with sufficient operational independence, and that the FCC documents system
           security plans in detail sufficient to plan system security controls for general support
           systems and major applications that are identical or equivalent to the NIST SP 800-53
           minimum baseline controls; and (Updated)
      7.   certifying and accrediting relevant FCC systems. (Updated)
The FCC strengthen its approach to performing risk assessments by:
      8.   implementing procedures for performing risk assessments that help ensure that risk
           assessments are performed in accordance with NIST guidance and consider a full range
           of significant risks, and that control recommendations from risk assessments are used
           to create or update system security plans; (New)
      9.   updating risk assessments at least every three years; (New)
      10. documenting e-authentication policies and procedures for ensuring FCC's compliance
          with OMB Memorandum 04-04, E-Authentication Guidance for Federal Agencies; and
          (New)
      11. performing e-authentication risk assessments and updating system security plans to
          define for each e-government application the relevant authentication level and the
          required level of e-authentication controls to implement. (New)
The FCC strengthen its access controls by:
      12. documenting the roles and permissions used within major applications; (New)
      13. granting individuals computer room access only after management approval; (New)
      14. granting access to FCC systems only after approval by management; (Updated)
      15. limiting logical access to FCC systems for newly hired employees and contractors
          pending a favorable result from a background check; (New)
      16. justifying the access of users with administrator or other elevated access; (New)
      17. requiring that all user access be reviewed and recertified by management and promptly
          revoking access for those users who are found to no longer need access or whose access
          is not recertified; (Updated)
      18. documenting and implementing procedures for documenting and tracking vulnerability
          remediation, and (Updated)
      19. reviewing the scope and applicability of the FCC’s password policies, documenting any
          exceptions to FCC password policies, and wherever applicable, ensuring that password
          settings are consistent with the FCC’s policies. (Updated)
The FCC strengthen its change and configuration management controls by:
      20. restricting developers’ access to the production environment; (Updated)
      21. revising its draft change management policy to include a requirement that changes be
          tested before being moved into production, and (Updated)
      22. implementing change control and configuration management procedures, including
          procedures for approving changes prior to implementation into production and
          procedures for maintaining records of changes to facilitate management’s review of
          changes made to FCC systems. (Updated)
The FCC strengthen its monitoring controls by:
      23. documenting and implementing procedures that ensure that at least annually, the FCC
          performs security assessment testing of a subset of controls to monitor the controls’
          effectiveness, with all controls being assessed at least once during the three-year
          authorization cycle; (New)
      24. documenting System-level POA&Ms consistent with OMB and NIST guidance, and
          (New)
      25. documenting and implementing procedures for the creation, maintenance, and review of
          POA&Ms, including procedures to help ensure that the FCC documents, prioritizes,
          tracks and reviews at least quarterly all security weaknesses identified by external and
          internal reviews. Quarterly reviews should include reporting to the CIO. The rationale
          for adjusting milestones should be documented. (New)
                                                                                                    EXHIBIT II

              STATUS OF PRIOR YEARS’ FINDINGS AND RECOMMENDATIONS

As required by Government Auditing Standards issued by the Comptroller General of the United States,
and by OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, we have reviewed
the status of FCC’s corrective actions with respect to the findings and recommendations included in the
prior years’ report on FCC’s internal control over financial reporting dated November 13, 2008. The
following table provides our assessment of the progress the FCC has made through September 30, 2009 in
correcting the material weakness and significant deficiencies identified in the FY 2008 Independent
Auditors’ Report.


                                             Material Weakness
Recommendation     Condition                          Recommendation                               Current Status
    Number         Audit Area
I. USF Budgetary Accounts
       1           Component     Focus management’s efforts on performing periodic financial           Closed
                   Entities      analysis, including fluctuation and trend analysis, at a
                                 minimum, on a quarterly basis. Enhancement to the
                                 fluctuation analysis should include developing expectations
                                 that are directly attributed to financial trends, operational
                                 trends or both. In addition, the trends should be based on
                                 dollar value, percentage changes or both over a period of
                                 time. Each expectation that is not met should be researched
                                 and results collaborated by data. Analytical tools that could
                                 be used are ratio analysis and trend analysis as well as
                                 predictive techniques such as calculation of an expected
                                 balance.
       2           Component     Assess the need for more human capital resources assigned to          Closed
                   Entities      the financial statement preparation and analysis process. The
                                 assessment should be conducted as soon as practical. In
                                 addition, a cross-training program should be implemented by
                                 providing key financial management personnel training
                                 related to federal government accounting standards and
                                 reporting requirements. Such training should be continuous
                                 to ensure financial management staff understands the current
                                 requirements.
                                          Significant Deficiencies
Recommendation     Condition                          Recommendation                               Current Status
    Number         Audit Area
I. Financial Reporting Process
       3           FCC Entity    Implement a financial system that is fully integrated and has     Updated –
                                 the ability to record proprietary and budgetary transactions on   Reported in
                                 a transaction basis and complies with the requirements set        current year
                                 forth in regulations such as OMB Circular A-127.                  recommendation
                                 Management should set up standard transaction codes to the        # 1-3
                                 greatest extent possible in the new financial management
                                 system to process all routine transactions and to allow
                                 automated, timely, and accurate recording for all recurring
                                 entries that are currently entered manually. In addition,
                               electronic integration with the subsidiary systems and with
                               FCC financial management system will enable FCC entities
                               to process accounting transactions or report financial data
                               efficiently and effectively. Subsidiary details should be
                               available at the transaction level so amounts reported in the
                               financial statements are adequately supported and can be
                               easily validated. The system software should be flexible to
                               accommodate new accounting requirements issued by
                               FASAB, OMB, and Treasury
       4          FCC Entity   Formalize and periodically update policies and procedures to        Closed
                               a) provide guidance to management and staff in recording
                               both recurring and unique transactions, including budgetary
                               accounts, and b) strengthen internal controls for financial
                               reporting to enhance the timeliness of financial statement
                               preparation and to minimize the risk of preparing inaccurate
                               financials.
II. Allowance for Loss on Accounts Receivable (ALAR) Methodology
       5          FCC Entity   Develop, formalize and implement the ALAR policies and              Closed
                  and          procedures to reflect an ALAR methodology that includes the
                  Component    following elements:
                  Entities
                                   •    Performance of a historical trend analysis based on
                                        both type and age of receivables to validate the
                                        ALAR reserve. If aging trend analysis is not
                                        appropriate, management should include the
                                        rationale for excluding the aging analysis as
                                        supported by historical data in its policy.
                                   •    Consideration and documentation of other factors
                                        that could affect the historical trend in the future and
                                        how that assessment affects the ALAR
                                        methodology. Such factors include the overall
                                        economy of the communications industry, and the
                                        credit quality of carriers. Once these factors are
                                        considered, management should establish a set of
                                        rates for the ALAR reserve by type and age,
                                        including consideration for anticipated recoveries.
                                   •    Development of management’s expectations for the
                                        trend analysis which includes setting the criteria for
                                        variances that are considered significant. Each
                                        significant variance should be researched and
                                        resolved. The resolution should be supported by
                                        collaborating data and maintained by management
                                        for review.
                                   •    Review of the ALAR on an item by item basis when
                                        the amounts owed by individual carriers are material
                                        and consider their impact on the overall ALAR
                                        separately.
                                   •    Performance of fluctuation analyses of amounts
                                        reported by types and ages of the receivables after
                                        the calculation is completed. If an aging fluctuation
                                        analysis is not appropriate, management should
                                        include an explanation of the rationale for excluding
                                        aging analysis in its policy.
       6           FCC Entity    Periodically assess the adequacy of the ALAR by comparing           Closed
                   and           the recorded amounts to the estimated amounts. Any
                   Component     adjustments to the current methodology should be
                   Entities      documented and supported by data or analysis. The
                                 estimated collection and recovery amounts are subject to risk
                                 that actual amounts collected may be different than
                                 management’s estimates. When this occurs, management
                                 should further analyze the drivers or factors for such an
                                 unexpected occurrence to ensure the validity and
                                 reasonableness of the current methodology.
III. Information Technology Control Deficiencies
       7           FCC Entity    Strengthen its security administration; develop new policies    Updated –
                                 when necessary; renew security policies and procedures          Reported in
                                 before they expire; recertify and accredit systems before       current year
                                 accreditation expires and address security vulnerabilities      recommendation
                                 noted in FCC’s technology infrastructure.                       # 4-7, 18
       8           FCC Entity    Strengthen system controls and user account management,         Updated –
                                 notably FCC should:                                             Reported in
                                                                                                 current year
                                     •    provide more oversight and develop its process to      recommendation
                                          effectively provide standard system configuration,     # 14, 17-19, 22
                                          patch management and network vulnerability
                                          controls;
                                     • encrypt and password-protect data on government-
                                          issued laptops and removable devices;
                                     • perform periodic review and validation of users to
                                          ensure that only authorized users have access to
                                          these systems;
                                     • document the authorization and justification for all
                                          users requesting remote access to system resources;
                                          and
                                     • enforce password complexity authentication to FCC
                                          IT resources
       9           FCC Entity    Strengthen FCC’s application change controls, notably:          Updated –
                                                                                                 Reported in
                                     •   Develop and implement a uniform configuration           current year
                                         management plan for the consistent testing, approval    recommendation
                                         and implementation of changes across all FCC            # 20-22
                                         applications. In addition, FCC should actively
                                         involve ITC staff in the testing and implementation
                                         decision process.
                                     •   Enforce separation of duties to ensure that access of
                                         developers to the production environments is
                                         restricted or supervised.
                                     •   Update the Support Services Change Management
                                         Policy and ensure that post deployment reviews are
                                         performed and documented for all changes migrated
                                         into production.
                                              Non Compliance
Recommendation     Condition                          Recommendation                             Current Status
    Number         Audit Area
I. The Federal Managers’ Financial Integrity Act (FMFIA)
      10.         FCC Entity    We recommend that management complete OMB Circular A-            Closed
                  and           127 reviews for its financial management system.
                  Component
                  Entities
II. Debt Collection Improvement Act (DCIA) of 1996
       11         FCC Entity    Establish and implement guidance in its policies and             Closed
                  and           procedures manual to ensure that delinquent debt 180 days or
                  Component     older is referred to Treasury as required by the Debt
                  Entities      Collection Improvement Act and that the TROR is properly
                                reviewed to ensure its reasonableness prior to transmitting to
                                Treasury.
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                  Independent Auditors’ Report on Compliance and Other Matters


Managing Director
Federal Communications Commission

Inspector General
Federal Communications Commission

We have audited the consolidated balance sheet of the Federal Communications Commission (FCC) as of
September 30, 2009, and the related consolidated statements of net cost, changes in net position, and
custodial activity, and combined statement of budgetary resources (hereinafter referred to as “consolidated
financial statements”) for the year then ended, and have issued our report thereon dated November 12,
2009. The accompanying consolidated financial statements of FCC as of September 30, 2008, were
audited by other auditors whose report thereon dated November 13, 2008, expressed an unqualified opinion
on those consolidated financial statements.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the consolidated financial statements are free of material misstatement.

The management of the FCC is responsible for complying with laws, regulations, and provisions of
contracts applicable to the FCC. As part of obtaining reasonable assurance about whether the FCC’s
consolidated financial statements are free of material misstatement, we performed tests of the FCC’s
compliance with certain provisions of laws, regulations, and contracts, noncompliance with which could
have a direct and material effect on the determination of the consolidated financial statement amounts, and
certain provisions of other laws and regulations specified in OMB Bulletin No. 07-04, including the
provisions referred to in OMB Circular A-127, Financial Management Systems. We limited our tests of
compliance to the provisions described in the preceding sentence, and we did not test compliance with all
laws, regulations, and contracts applicable to the FCC. However, providing an opinion on compliance with
those provisions was not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph, disclosed one instance of
noncompliance or other matters that are required to be reported herein under Government Auditing
Standards or OMB Bulletin No. 07-04, and is presented in Exhibit I.

The FCC’s response to the instance of noncompliance or other matters identified in our audit is presented
in the Agency Financial Report. We did not audit the FCC’s response and, accordingly, we express no
opinion on it.




                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
We noted certain additional matters that we have reported to management of the FCC in a separate letter
dated November 12, 2009.

This report is intended solely for the information and use of the FCC’s management, the FCC’s Office of
Inspector General, OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not
intended to be and should not be used by anyone other than these specified parties.




November 12, 2009
                                                                                               EXHIBIT I

The Federal Managers’ Financial Integrity Act (FMFIA)

The FMFIA establishes overall requirements with regard to internal control. The agency head must
establish controls that reasonably ensure that: “(i) obligations and costs are in compliance with applicable
law; (ii) funds, property, and other assets are safeguarded against waste, loss, unauthorized use or
misappropriation; and (iii) revenues and expenditures applicable to agency operations are properly
recorded and accounted for to permit the preparation of accounts and reliable financial and statistical
reports and to maintain accountability over the assets.”

In addition, the agency head annually must evaluate and report on the control and financial systems that
protect the integrity of Federal programs (Section 2 and Section 4 of FMFIA, respectively).

•   Section 2 seeks to assess internal controls necessary to ensure obligations and costs are in compliance
    with applicable law; funds, property, and other assets are safeguarded against waste, loss, unauthorized
    use, or misappropriation; and revenues and expenditure are properly recorded and accounted for to
    permit the preparation of accounts and reliable financial and statistical reports and to maintain
    accountability of assets.
•   Section 4 seeks to assess nonconformance of the agency's accounting system with the principles,
    standards, and related requirements prescribed by the Comptroller General.
OMB Circular A-127, Financial Management Systems, provides guidance in complying with section 4 of
FMFIA. It states that financial management systems shall be designed to provide for effective and efficient
interrelationships between software, hardware, personnel, procedures, controls, and data contained within
the systems. Once implemented, this financial management system should allow an entity to prepare
reliable financial statements in a timely and efficient manner. In doing so, they shall have the following
characteristics:

•   Common Data Elements - Standard data classifications (definitions and formats) shall be established
    and used for recording financial events. Common data elements shall be used to meet reporting
    requirements and, to the extent possible, used throughout the agency for collection, storage and
    retrieval of financial information. Government-wide information standards (e.g., the U.S. Government
    Standard General Ledger) and other external reporting requirements shall be incorporated into the
    agency's standard data classification requirements.
•   Common Transaction Processing - Common processes shall be used for processing similar kinds of
    transactions throughout the system to enable these transactions to be reported in a consistent manner.
•   Consistent Internal Controls - Internal controls over data entry, transaction processing and reporting
    shall be applied consistently throughout the system to ensure the validity of information and protection
    of Federal government resources.
•   Efficient Transaction Entry - Financial system designs shall eliminate unnecessary duplication of
    transaction entry. Wherever appropriate, data needed by the systems to support financial functions shall
    be entered only once and other parts of the system shall be updated through electronic means consistent
    with the timing requirements of normal business/transaction cycles.
The FCC reporting component entities’ current financial systems and processes are not capable of
achieving the financial system integration standards set within OMB Circular A-127.

Recommendations were issued under the Financial Reporting Significant Deficiency noted in the
Independent Auditors’ Report on Internal Control Over Financial Reporting dated November 12, 2009.
                                                                Office of the Managing Director
                                                                                 MEMORANDUM




DATE:           November 13, 2009

TO:             David L. Hunt, Acting Inspector General

FROM:           Steven VanRoekel, Managing Director and Mark Stephens, Chief Financial Officer

SUBJECT:        Management’s Response to Independent Auditors’ Reports on Internal Control Over
                Financial Reporting and Compliance and Other Matters for Fiscal Year 2009


Thank you for the opportunity to review and comment on the draft reports entitled Independent Auditors’
Report on Internal Control Over Financial Reporting and Independent Auditors’ Report on Compliance
and Other Matters. We appreciate the efforts of your team and the independent auditor, KPMG LLP, to
work with the Federal Communications Commission (Commission) throughout the fiscal year (FY) 2009
audit process. This year’s audit opinion was the result of commitment and professionalism that both our
offices and the independent auditors demonstrated during the FY 2009 audit process. During the entire
audit process the Commission worked closely with your office and the independent auditors’ team to
provide necessary and timely information to facilitate an efficient audit process.

We are pleased that, for the fourth straight year, the independent auditor provided an unqualified opinion
and found that the Commission’s consolidated financial statements for FY 2009 present fairly, in all
material respects, the financial position of the Commission as of September 30, 2009. Four straight years
of clean audit opinions is an unprecedented accomplishment for the Commission. We are also pleased
that the independent auditor did not identify any material weaknesses in the Commission’s financial
reporting. We have worked very hard to continue strengthening the Commission’s internal controls and
improving its financial management.

Despite these successes, work remains here at the Commission. The FY 2009 audit report points out two
significant deficiencies related to internal controls and notes one instance of non-compliance that still
needs to be resolved. The primary areas of concern relate to the financial reporting process, information
technology control weaknesses and noncompliance with the Federal Managers’ Financial Integrity Act.
We concur with the recommendations made by the independent auditors in their report.

First, with regard to addressing the significant deficiency for the financial reporting process related to the
Commission and its reporting components, the Commission has taken steps throughout FY 2008 and
2009 to resolve the auditors’ findings and improve the performance of its financial reporting process
through the implementation of a new core financial management system. The Commission is currently
relying on a core financial management system that is obsolete and is no longer supported by its vendor.



AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                        49
The Commission has approached the replacement of its core financial management system as an
opportunity to deliver on its strategic goal of modernizing the Commission, improving the efficiency and
effectiveness of financial operations, and to replacing disparate financial systems with a single integrated
financial system. The Commission released its solicitation for proposals for a new core financial system
at the end of FY 2007. During FY 2008, the Commission selected a vendor to supply the new core
financial system and provide integration services. The Commission also selected a vendor to assist with
change management, data clean up, and improvements to business process flows as it moves to the new
core financial system. During FY 2009, the Commission worked assiduously with the selected vendor on
the initiation, requirements, design, development, and testing phases of the project. In FY 2010 the
Commission plans to complete the deployment of the new financial system and to go live with a new
financial system in October 2010. Also in FY 2010 the Commission plans to work closely with its
reporting component’s in their efforts to modernize their financial systems.

Second, with respect to the significant deficiency related to information technology control weaknesses,
the Commission is already working to fully assess the auditors’ recommendations and to develop
corrective action plans. Some findings are already in the process of being addressed (e.g., the
certification and accreditation of key information technology systems). During FY 2010, the Commission
will make every effort to complete corrective action for each of the recommendations associated with
these findings so as to avoid any repeat findings in this area.

Third, with respect to the instances of noncompliance with the Federal Managers’ Financial Integrity Act,
the Commission and its reporting components are committed to implementing financial systems that are
fully integrated, and that provide efficient and effective processing and reporting of accounting
transactions and financial information.

Finally, we are committed to continually strengthening the internal controls of the Commission and its
reporting components. This commitment includes developing timely, accurate, and useful performance
and financial information to ensure the most effective stewardship of both the funds that the Commission
oversees and the funds that the Commission uses to finance its operations. We look forward to working
in FY 2010 to resolve the FY 2009 audit findings and to enhance the culture of integrity, accountability,
and excellence that exists here at the Commission.




Steven VanRoekel, Managing Director
Office of Managing Director




Mark Stephens, Chief Financial Officer
Office of Managing Director


AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                      50
PRINCIPAL STATEMENTS

FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED BALANCE SHEET
As of September 30, 2009 and 2008
(Dollars in thousands)
                                                                    FY 2009          FY 2008
ASSETS (Note 2)
 Intragovernmental
   Fund balance with Treasury (Note 3)                          $      359,735   $      444,293
   Investments (Note 5)                                              6,016,693        5,721,609
   Accounts receivable (Note 6)                                            889            2,731
   Other (Note 8)                                                      400,451       17,177,707
 Total intragovernmental                                             6,777,768       23,346,340

 Cash and other monetary assets (Note 4)                                68,852           51,942
 Accounts receivable, net (Note 6)                                     763,843          891,106
 Loans receivable, net (Note 7)                                         83,589          187,340
 General property, plant, and equipment, net                            49,616           36,082
 Other                                                                   7,735           15,031

Total assets                                                    $    7,751,403   $   24,527,841

LIABILITIES (Note 9)
 Intragovernmental
   Debt (Note 10)                                               $       46,484   $      112,711
   Other (Note 11)
    Custodial                                                          110,808          193,854
    Other                                                                7,113            2,346
   Total other                                                         117,921          196,200

 Total intragovernmental                                               164,405          308,911

 Accounts payable                                                       79,733           79,569
 Other (Note 11)
  Deferred revenue (Note 8)                                            528,234       17,302,548
  Prepaid contributions                                                 57,670           73,179
  Accrued liabilities for Universal Service                            591,512          521,319
  Other                                                                 62,778           46,471
 Total other                                                         1,240,194       17,943,517

Total liabilities                                               $    1,484,332   $   18,331,997

 Commitments and Contingencies (Note 13)

NET POSITION
 Unexpended appropriations - other funds                        $       44,000   $       11,273
 Cumulative results of operations - earmarked funds (Note 19)        6,051,177        5,927,074
 Cumulative results of operations - other funds                        171,894          257,497

Total net position                                              $    6,267,071   $    6,195,844

Total liabilities and net position                              $    7,751,403   $   24,527,841



                             The accompanying notes are an integral part of these statements.




AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                        51
FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED STATEMENT OF NET COST
For the Years Ended September 30, 2009 and 2008
(Dollars in thousands)
                                                                    FY 2009             FY 2008
       Program costs:
        Broadband:
         Gross costs (Note 14)                                  $       31,378      $       21,787
         Less: earned revenue (Note 14)                                (34,791)            (25,109)
         Net program costs                                              (3,413)             (3,322)

        Competition:
         Gross costs (Note 14)                                       8,219,793           7,918,069
         Less: earned revenue (Note 14)                               (114,125)           (119,669)
         Net program costs                                           8,105,668           7,798,400

        Spectrum:
         Gross costs (Note 14)                                         154,242             198,845
         Less: earned revenue (Note 14)                               (137,218)           (154,572)
         Net program costs                                              17,024              44,273

        Media:
         Gross costs (Note 14)                                         165,217              53,368
         Less: earned revenue (Note 14)                                (95,437)            (59,717)
         Net program costs                                              69,780              (6,349)

        Public Safety and Homeland Security:
         Gross costs (Note 14)                                          34,137              32,985
         Less: earned revenue (Note 14)                                (31,195)            (37,104)
         Net program costs                                               2,942              (4,119)

        Modernize the FCC:
         Gross costs (Note 14)                                          52,519              50,784
         Less: earned revenue (Note 14)                                (49,334)            (55,920)
         Net program costs                                               3,185              (5,136)

        Total Net Program Costs                                      8,195,186           7,823,747

        Cost not assigned to programs:
         Telecommunications Development Fund                                 2               8,960
         Other expenses                                                   (593)             (1,311)

        Less: earned revenues not attributed to programs:
         Telecommunications Development Fund                                  (2)           (8,960)

        Net cost of operations                                  $    8,194,593      $    7,822,436



                    The accompanying notes are an integral part of these statements.




AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                    52
FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the Years Ended September 30, 2009 and 2008
(Dollars in thousands)

                                                                  FY 2009                                                     FY 2008
                                              Consolidated       Consolidated                            Consolidated        Consolidated
                                                Earmarked             All Other       Consolidated         Earmarked             All Other       Consolidated
                                                     Funds               Funds               Total              Funds               Funds               Total

Cumulative Results of Operations
 Beginning Balances                       $      5,927,074   $        257,497     $     6,184,571    $      5,193,576    $        252,783    $     5,446,359

Budgetary Financing Sources
 Other adjustments (rescissions, etc.)                   -             (1,164)             (1,164)                  -              (2,781)            (2,781)
 Appropriations used                                     -            109,698             109,698                   -               7,495              7,495
 Non-exchange revenue                            8,240,928                  -           8,240,928           8,566,063                   -          8,566,063
 Transfers in/out without reimbursement                  -                  -                   -             (21,480)             21,480                  -

Other Financing Sources (Non Exchange)
 Transfers in/out without reimbursement                  -            (19,444)            (19,444)                  -             (22,115)           (22,115)
 Imputed financing                                       -             14,608              14,608                   -              13,568             13,568
 Other                                                   -           (111,533)           (111,533)                  -              (1,582)            (1,582)

Total Financing Sources                          8,240,928              (7,835)         8,233,093           8,544,583              16,065          8,560,648
Net Cost of Operations                           8,116,825              77,768          8,194,593           7,811,085              11,351          7,822,436
Net Change                                         124,103             (85,603)            38,500             733,498               4,714            738,212

Cumulative Results of Operations                 6,051,177            171,894           6,223,071           5,927,074             257,497          6,184,571


Unexpended Appropriations
 Beginning Balances                                      -             11,273              11,273                   -              17,544              17,544

Budgetary Financing Sources
 Appropriations received                                 -             51,765              51,765                   -               1,000               1,000
 Appropriations transferred in/out                       -             90,660              90,660                   -                   -                   -
 Other adjustments                                       -                  -                   -                   -                 224                 224
 Appropriations used                                     -           (109,698)           (109,698)                  -              (7,495)             (7,495)
 Total Budgetary Financing Sources                       -             32,727              32,727                   -              (6,271)             (6,271)

Total Unexpended Appropriations                          -             44,000              44,000                   -              11,273              11,273

Net Position                              $      6,051,177   $        215,894     $     6,267,071    $      5,927,074    $        268,770    $     6,195,844




                               The accompanying notes are an integral part of these statements.




AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                                                                        53
FEDERAL COMMUNICATIONS COMMISSION
COMBINED STATEMENT OF BUDGETARY RESOURCES
For the Years Ended September 30, 2009 and 2008
(Dollars in thousands)
                                                                               FY 2009                                FY 2008

                                                                                   Non Budgetary                           Non Budgetary
                                                                                   Credit Program                          Credit Program
                                                                   Budgetary       Financing Acct         Budgetary        Financing Acct
Budgetary Resources:

Unobligated balance, brought forward, October 1:               $      2,282,036 $           53,904    $       1,702,164    $        45,527
Recoveries of prior year unpaid obligations                           1,118,204                -              1,036,931                -
Budget authority:
 Appropriations received                                              8,425,431                -              8,598,479                -
 Borrowing authority (Note 16)                                              -               63,745                  -                6,797
 Spending authority from offsetting collections
   Earned:
     Collected                                                         441,543             148,107             411,862              15,258
     Change in receivables from Federal sources                            (15)                -                     7                 -
   Change in unfilled customer orders:
     Advance received                                                     1,336                -                    -                  -
   Previously unavailable                                                54,130                -                 31,702                -
 Budget authority subtotal                                            8,922,425            211,852            9,042,050             22,055

Nonexpenditure transfers, net, anticipated and actual                    90,660                -                    -                  -
Temporarily not available pursuant to Public Law                        (54,185)               -                (54,130)               -
Permanently not available                                                (1,164)          (129,972)              (4,139)               -

Total budgetary resources                                      $     12,357,976 $          135,784    $      11,722,876    $        67,582

Status of Budgetary Resources:

Obligations incurred: (Note 15)
 Direct                                                        $      9,321,120 $          123,440    $       9,438,478    $        13,678
 Reimbursable                                                             1,740                -                  2,361                -
 Subtotal                                                             9,322,860            123,440            9,440,839             13,678

Unobligated balance - available:
 Apportioned                                                            350,887                -                113,905                -
 Exempt from apportionment                                            2,656,578                -              2,061,178                -
Unobligated balance not available                                        27,651             12,344              106,954             53,904

Total status of budgetary resources                            $     12,357,976 $          135,784    $      11,722,876    $        67,582



Change in Obligated Balance:

Obligated balance, net
 Unpaid obligations, brought forward, October 1                $      3,588,774 $              -      $       3,464,773    $           -
 Uncollected customer payments from
 Federal sources, brought forward, October 1                                (15)               -                     (9)               -
 Total unpaid obligated balance, brought forward, net                 3,588,759                -              3,464,764                -

Obligations incurred net (+/-)                                        9,322,860            123,440            9,440,839             13,678
Gross outlays                                                        (8,636,019)          (123,440)          (8,279,906)           (13,678)
Recoveries of prior year unpaid obligations, actual                  (1,118,204)               -             (1,036,931)               -
Change in uncollected customer payments from Federal sources                 15                -                     (7)               -
 Total, unpaid obligated balance, net, end of period                  3,157,411                -              3,588,759                -

Obligated balance, net, end of period
 Unpaid obligations                                                   3,157,411                -              3,588,774                -
 Uncollected customer payments from
        Federal sources                                                     -                  -                    (15)               -
 Total, unpaid obligated balance, net, end of period                  3,157,411                -              3,588,759                -


Net Outlays

Net Outlays:
  Gross outlays                                                $      8,636,019 $          123,440    $       8,279,906 $           13,678
  Offsetting collections                                               (442,879)          (148,107)            (411,862)           (15,258)
  Distributed offsetting receipts                                      (189,641)               -               (216,686)               -
  Net outlays                                                  $      8,003,499 $          (24,667)   $       7,651,358 $           (1,580)




                                        The accompanying notes are an integral part of these statements.




AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                                                                    54
FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED STATEMENT OF CUSTODIAL ACTIVITY
For the Years Ended September 30, 2009 and 2008
(Dollars in thousands)

                                                                       FY 2009                   FY 2008
Revenue Activity:
 Sources of Cash Collections:
   Spectrum Auctions                                               $      16,791,163         $       1,793,794
   Fines and Penalties                                                        17,745                    35,172
   Credit Reform                                                              11,915                    13,678
   TDA Interest                                                                    2                     8,960
 Total Cash Collections                                                   16,820,825                 1,851,604

 Accrual Adjustments
  Spectrum Auctions                                                            (2,492)                      (444)
  Fines and Penalties                                                          (9,922)                     8,515
 Total Accrual Adjustments                                                    (12,414)                     8,071

Total Custodial Revenue                                                   16,808,411                 1,859,675

Disposition of Collections:
 Transferred to Others:
    Recipient A: U.S. Treasury                                                (29,660)                 (49,010)
   Recipient B: Finance Acct (Recoveries)                                     (87,238)                     -
   Recipient C: Spectrum Relocation Fund                                          -                        (92)
   Recipient D: National Telecommunications & Information Admin.          (16,689,557)              (1,778,983)

 (Increase)/Decrease in Amounts Yet to be Transferred                          83,046                   62,369
 Retained by the Reporting Entity                                             (85,002)                 (93,959)

Net Custodial Activity                                             $              -          $               -




                          The accompanying notes are an integral part of these statements.




AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                           55
Notes to the Principal Financial Statements
FOR THE YEARS ENDED SEPTEMBER 30, 2009 AND 2008
(DOLLARS IN THOUSANDS UNLESS OTHERWISE STATED)


NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

Reporting Entity

The Commission is an independent United States Government agency, established by the
Communications Act (Act) of 1934, as amended. The Commission is charged with regulating interstate
and international communications by radio, television, wire, satellite, and cable. The Commission’s
jurisdiction spans the 50 states, the District of Columbia, and the U.S. possessions. Five commissioners
direct the Commission; they are appointed by the President of the United States and confirmed by the
Senate for five-year terms, except when filling an unexpired term or serving in holdover status.

The Commission is comprised of three reporting components. The primary component consists of
Commission headquarters and field offices. The two additional components are the Universal Service
Fund (USF) and the North American Numbering Plan (NANP). The USF reports the results of the four
Universal Service support mechanisms (established pursuant to section 254 of the Act, as amended) and
the results of the Telecommunications Relay Service (TRS) Fund (established by the Americans with
Disabilities Act of 1990, Title IV). The NANP reports the results of billing and collection activities
conducted to support the NANP (47 U.S.C. § 251(e); 47 C.F.R. § 52.16, 52.17, 52.32, and 52.33).

Basis of Accounting and Presentation

The consolidated financial statements (financial statements) have been prepared from the accounting
records of the Commission in conformity with U.S. generally accepted accounting principles (GAAP) and
the form and content for Federal entity financial statements specified by OMB Circular No. A-136,
“Financial Reporting Requirements.”

The preparation of financial statements in conformity with GAAP requires management to make
estimates and assumptions that affect the amounts reported in the financial statements. Actual results may
differ from those estimates.

Fund Balance with Treasury

Funds with the Department of the Treasury (Treasury) primarily represent appropriated, revolving, and
deposit funds. The Commission may use the appropriated and revolving funds to finance expenditures,
depending on budgetary availability. The deposit accounts are used to hold funds temporarily until they
can be properly disbursed or distributed.




AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                     56
NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (continued)

Cash and Other Monetary Assets

Cash and Other Monetary Assets represent cash on deposit and money market funds at several
commercial banks in accounts maintained by Universal Service Administrative Company (USAC),
National Exchange Carrier Association (NECA), and Welch LLP, which contain the names of those
entities and also refer to the Commission or the fund for which they serve as administrator or billing and
collection agent. Cash on deposit is collateralized by the Federal Reserve.

Investments

Investments are reported net of the unamortized premium or discount. All investments are in Treasury
securities.

Accounts Receivable, Net

Accounts Receivable consists of claims made for payment from the public and other federal entities.
Gross receivables are reduced to net realizable value by an allowance for doubtful accounts.

Loans Receivable, Net

The Federal Credit Reform Act (FCRA) of 1990, as amended, governs the reporting requirements for
direct loan obligations made after FY 1991. The FCRA requires that the present value of the subsidy
costs associated with direct loans be recognized as a cost in the year that the loan is obligated. (Present
value is calculated as the estimated cash outflows over the life of the loans, less the present value of the
estimated cash inflows, discounted at the interest rate of marketable Treasury securities with a similar
maturity term.) Direct loans are reported net of an allowance for subsidy at the present value.

Property, Plant and Equipment

The basis for recording purchased general Property, Plant, and Equipment (PP&E) is full cost, including
all costs incurred to bring the PP&E to and from a location suitable for its intended use. All PP&E with
an initial acquisition cost of $25 or more and all internally developed software with a development cost of
$50 or more, and with an estimated useful life of two years or greater, are capitalized. Bulk purchases of
similar items, individually worth less than $25 but collectively worth more than $250, are also capitalized
using the same equipment categories and useful lives as capital acquisitions. PP&E are depreciated on a
straight-line basis over the estimated useful lives of the items. The useful lives used are: forty years for
buildings, seven years for non-computer equipment, five years for computers and vehicles, and three
years for software. Neither land, including permanent improvements, nor software in development is
depreciated. Normal maintenance and repair costs are expensed as incurred.

Leasehold improvements include all costs incurred during the design and construction phase of the
improvement. These costs are amortized over the remaining life of the lease, or the useful life of the
improvements, whichever is shorter.




AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                      57
NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (continued)

Other Assets

Other Assets represent the balance of transfers less expenses made by the USF to the USAC to fund
administrative costs in advance. Advances are drawn down as expenses are incurred. Other Assets –
Intragovernmental are discussed in Note 8.

Accounts Payable and Accrued Liabilities

Accounts Payable and Accrued Liabilities represent a probable future outflow or other sacrifice of
resources as a result of past transactions or events. Liabilities are recognized when they are incurred,
regardless of whether they are covered by available budgetary resources. Liabilities cannot be liquidated
without legislation that provides resources to do so. As a component of the U.S. Government, a sovereign
entity, payments of all liabilities other than contracts can be abrogated by the sovereign entity.

Deferred Revenue

The Commission collects proceeds from the sale of communications spectrum on behalf of the U.S.
Government. All proceeds collected up to the amount of the net winning bid are recognized as deferred
revenue until a “prepared to grant” or “grant” public notice is issued. In addition, the Commission
collects multi-year regulatory fees for five- and ten-year periods that are recorded as deferred revenue and
amortized over the period of the fee.

The NANP and USF collect contributions from U.S., Canadian, and Caribbean carriers to cover the costs
of the programs. Some carriers have the option of paying monthly or annually. The unearned portion of
annual contributions is recognized as deferred revenue.

Debt

This account represents amounts due to the U.S. Treasury’s Bureau of Public Debt (BPD) to support the
spectrum auction loans program. Borrowings from BPD are determined based on subsidy estimates and
reestimates in accordance with the FCRA of 1990, as amended, and OMB guidance. Interest payments
on debt are calculated annually and remitted to BPD at the end of the fiscal year. These payments are
recorded in a receipt account maintained by the Commission.

Retirement Plans and Other Benefits

Federal employee benefits consist of the actuarial portions of future benefits earned by Federal
employees, including pensions, other retirement benefits, and other post-employment benefits. The
Office of Personnel Management (OPM) administers these benefits. The Commission does not recognize
any liability on the Balance Sheet for pensions, other retirement benefits, and other post-employment
benefits. The Commission recognizes and allocates the imputed costs on the Statement of Net Cost and
recognizes imputed financing related to these costs on the Statement of Changes in Net Position.




AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                      58
NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (continued)

Retirement Plans and Other Benefits (continued)

Pensions provide benefits upon retirement and may also provide benefits for death, disability, or other
termination of employment before retirement. Pension plans may also include benefits to survivors and
dependents, and they may contain early retirement or other special features. Most Commission
employees participate in the Civil Service Retirement System (CSRS) or the Federal Employee
Retirement System (FERS). Under CSRS, the Commission makes matching contributions equal to seven
percent of basic pay. For FERS employees, the Commission contributes the employer’s matching share
for Social Security, contributes an amount equal to one percent of employee pay to a savings plan, and
matches up to an additional four percent of pay. Most employees hired after December 31, 1983 are
covered by FERS.

The OPM reports on CSRS and FERS assets, accumulated plan benefits, and unfunded liabilities, if any,
applicable to Federal employees.

The actuarial liability for future workers’ compensation benefits includes the expected liability for death,
disability, medical and miscellaneous costs for approved compensation cases, plus a component for
incurred but not reported claims. The liability is determined by using historical benefit payment patterns
related to a specific incurred period to predict the ultimate payment related to that period. The
Department of Labor determines no actuarial liability for the Commission, due to the immateriality to the
Federal Government as a whole.

The unfunded FECA liability covers unemployment compensation and medical benefits. The calculation
takes the amount of benefit payments over the last nine to twelve quarters and then calculates the annual
average of payments. The compensation and medical payments can be found in the chargeback reports
that are issued by FECA.

Leave

Annual leave is accrued as earned, and the accrual is reduced as leave is taken. Each year, the balance in
the accrued annual leave account is adjusted to reflect current leave balances and pay rates. Annual leave
is reflected as a liability not covered by current budgetary resources. Sick leave and other types of non-
vested leave are expensed as taken.

Revenue and Other Financing Sources

Regulatory Fee Collections (Exchange) - The Omnibus Budget Reconciliation Act of 1993 directed the
Commission to assess and collect regulatory fees to recover the costs incurred in carrying out certain
provisions of its mission. Section 9(a) of the Act, as amended, authorizes the Commission to assess and
collect annual regulatory fees to recover the costs, as determined annually by Congress, incurred in
carrying out its strategic goals of broadband, competition, spectrum, media, public safety and homeland
security, and modernizing the Commission. These fees were established by congressional authority, and,
consistent with OMB Circular No. A-25 revised, User Charges, the Commission did not determine the
full costs associated with its regulatory activity in establishing regulatory fees. Since 1993, Congress has
annually reviewed the regulatory fee collection requirements of the Commission and established the total
fee levels to be collected. Fees collected up to the level established by Congress are applied against the
Commission’s annual appropriation at the close of each fiscal year. The regulatory fee levels of $341,875
for FY 2009 and $312,000 for FY 2008 were achieved.



AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                      59
NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (continued)

Revenues and Other Financing Sources (continued)

Radio Spectrum Auction Proceeds (Exchange) – In accordance with the provisions of Statement of
Federal Financial Accounting Standards (SFFAS) 7, Accounting for Revenue and Other Financing
Sources, the Commission accounts for this exchange revenue as a custodial activity. Revenue from
spectrum auctions is recognized when a “prepared to grant” or “grant” public notice is issued. The value
of available spectrum is determined in the market place at the time of auction. The Commission
recognized custodial revenue of $16,788,671 in FY 2009 and $1,793,350 in FY 2008.

Offsetting Collections (Exchange) – One of the Commission’s primary functions is managing the
spectrum auction program. Proceeds from the auctions are initially remitted to the Commission and are
later transferred to the U.S. Treasury, net of anticipated auction related costs (under 47 U.S.C. § 309, the
Commission may retain a portion of the spectrum auction proceeds to offset the cost of performing the
auction function). Collections used to offset the cost of performing auctions-related activity were capped
at $85,000 in FY 2009 and FY 2008.

Application Fees (Exchange) – Congress authorized the Commission (47 U.S.C. § 8) to impose and
collect application processing fees and directed the Commission to prescribe charges for certain types of
application processing or authorization services it provides to communications entities over which the
Commission has jurisdiction. The Commission amends its Schedule of Application Fees (47 C.F.R. §
1.1102 et seq.) to adjust the fees for processing applications and other filings. Section 8(b) of the Act, as
amended, requires the Commission to review and adjust its application fees every two years. The
adjusted or increased fees reflect the net change in the Consumer Price Index for all Urban Consumers
(CPI-U), calculated over a specific period of time. Application fees are deposited in the Treasury and are
not available for the Commission’s use. Application fees collected totaled $19,444 in FY 2009 and
$22,175 in FY 2008.

Reimbursable Work Agreements (Exchange) – The Commission recognizes reimbursable work
agreement revenue when earned, i.e., goods that have been delivered or services rendered. The
Commission executed agreements totaling $1,583 in FY 2009 and $2,052 in FY 2008.

Annual Appropriations (Financing Source) – The Commission receives an annual Salaries and Expenses
appropriation from Congress. These funds are used to pay for operations during the fiscal year and are
repaid to the Treasury once regulatory fees are collected. The annual appropriation for FY 2009 is
$341,875 which is fully funded by regulatory fee collections. The annual appropriation for FY 2008 was
$313,000 with regulatory fee collections of $312,000 resulting in a net appropriation of $1,000. The
Commission funds expenditures first from appropriations and then from offsetting collections.




AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                       60
NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (continued)

Revenues and Other Financing Sources (continued)

Subsidy Estimates and Reestimates (Financing Source) – The Commission receives permanent-indefinite
authority for its credit reform program account in accordance with the FCRA of 1990, as amended, to
fund its subsidy estimates and reestimates, unless otherwise prescribed by OMB. This account records
the subsidy costs associated with the direct loans after FY 1991, as well as administrative expenses of the
loan program. The Commission received an appropriation for upward subsidy of $51,765 in FY 2009.
No appropriation was requested for FY 2008. These appropriations are available until used.

USF (Nonexchange) – Carriers conducting interstate telecommunications are required to contribute a
portion of their revenues to fund the cost of providing universal service. These contributions represent
appropriated and earmarked receipts and are accounted for as a budgetary financing source. Contributions
and related interest totaled $8,240,929 in FY 2009 and $8,566,063 in FY 2008.

Digital Television Transition and Public Safety Recovery Act Funds (Financing Source) – During FY
2009 the National Telecommunications and Information Administration (NTIA), U.S. Department of
Commerce (DOC), transferred $70,605 in appropriated funds to the Commission for the purposes of
consumer education and outreach regarding the digital television transition. Total obligations were
$66,517 in FY 2009. These funds are part of the American Recovery and Reinvestment Act (ARRA) of
2009.

Broadband Technology Opportunities Program – National Broadband Plan Recovery Act Funds
(Financing Source) - During FY 2009, the NTIA transferred $20,055 in appropriated funds to the
Commission for the purpose of establishing benchmarks to ensure that all people of the United States
have access to broadband capability. Total obligations were $3,144 in FY 2009. These funds are part of
the ARRA of 2009.

Allocation of Exchange Revenues
The Commission directly assigns exchange revenue from reimbursable work agreements to specific
programs on the statement of net cost. Exchange revenue from regulatory fees, offsetting collections, and
application fees is assigned to programs in direct proportion to the level of direct and indirect costs
recognized for each program. Radio Spectrum Auction proceeds are exchange revenue but are recorded
on the statement of custodial activity because the Commission recognizes virtually no cost in connection
with the revenues earned in the spectrum auction.




AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                      61
NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (continued)

Transactions with Related Parties

The Commission has a direct oversight relationship with the administrators and billing and collection
agents (B&C agents) of funds that are components under the overall Commission entity. These
organizations are the USAC, which is both the administrator and B&C agent for the four USF support
mechanisms, the NECA which is both the administrator and B&C agent for the TRS Fund, and Neustar
which is the administrator for the NANP fund and Welch LLP which is the B&C agent for the NANP
fund. The Commission approves the administrative costs paid to these entities from the respective funds
that they manage. The administrative costs cover expenses such as the salaries and benefits for the
employees dedicated to managing the funds; rent and utilities for office space used; accounting and other
financial reporting related services; and other management activities. All related party balances as of and
for the years ended FY 2009 and FY 2008 are listed below:

                                 USF           TRS           NANP           Total

FY 2009:
Administrative Fees          $ 182,711     $     1,390   $     3,932    $   188,033
Due To                               -              98             -             98
Due From                         7,677               -             -          7,677
Total                        $ 190,388     $     1,488   $     3,932    $   195,808

FY 2008:
Administrative Fees          $ 156,120     $     1,097   $     3,875    $   161,092
Due To                               -              93           265            358
Due From                        15,031               -             -         15,031
Total                        $ 171,151     $     1,190   $     4,140    $   176,481


Net Position

Net Position is the residual difference between assets and liabilities and is comprised of Unexpended
Appropriations and Cumulative Results of Operations. Unexpended Appropriations represents the
amount of unobligated and unexpended budget authority. Unobligated Balance is the amount of
appropriations or other authority remaining after deducting the cumulative obligations from the amount
available for obligation. Cumulative Results of Operations is the net difference since the inception of the
Commission of (1) expenses and losses and (2) financing sources including appropriations, revenues, and
gains.




AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                      62
NOTE 2 – NON-ENTITY ASSETS

The following summarizes Non-entity Assets as of September 30, 2009 and 2008:

                                                                              FY 2009                    FY 2008
      Intragovernmental:
          Fund Balance with Treasury (FBWT)                               $     143,772              $      212,116
          Accounts Receivable, Net                                                  874                       2,716
          Other (Note 8)                                                        400,451                  17,177,707
       Total Intragovernmental                                                  545,097                  17,392,539

      Cash and Other Monetary Assets                                           21,012                          1
      Accounts Receivable, Net                                                 18,053                     30,259
      Total Non-entity Assets                                                 584,162                 17,422,799
      Total Entity Assets                                                   7,167,241                  7,105,042
      Total Assets                                                        $ 7,751,403                $24,527,841

Non-entity Fund Balance with Treasury primarily represents deposits made towards spectrum auction
winning bids. These deposits accounted for $132,199 in FY 2009 and $208,390 in FY 2008. Non-entity
Cash and Other Monetary Assets also consist of deposits made by spectrum auction bidders that are held
outside of Treasury. Receivables considered non-entity are for regulatory fees, application fees, fines and
forfeitures, spectrum auction receivables, and International Telecommunications Settlement (ITS)
charges.

NOTE 3 – FUND BALANCE WITH TREASURY

The following summarizes Fund Balance with Treasury as of September 30, 2009 and 2008:

FY 2009
                                      Appropriated
                                        Funds        Revolving Funds   Deposit Funds      Total

Unobligated Balance
 Available                            $    48,209 $           12,344 $              - $     60,553
 Unavailable                               57,645                  -                -       57,645
Obligated Balance not yet Disbursed        97,765                  -                -       97,765
Non-Budgetary FBWT                              -                  -          143,772      143,772
Total                                 $   203,619 $           12,344 $        143,772 $    359,735



FY 2008
                                      Appropriated
                                        Funds        Revolving Funds   Deposit Funds      Total

Unobligated Balance
 Available                            $    39,246 $           53,904 $              - $     93,150
 Unavailable                               56,966                  -                -       56,966
Obligated Balance not yet Disbursed        82,061                  -                -       82,061
Non-Budgetary FBWT                              -                  -          212,116      212,116
Total                                 $   178,273 $           53,904 $        212,116 $    444,293




AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                                  63
NOTE 3 – FUND BALANCE WITH TREASURY (continued)

Appropriated Funds – Includes the salaries and expense appropriation used to fund agency operations, the
auction and reimbursable accounts, the no-year accounts used to carry over spectrum auction and
regulatory fee funds, and the credit reform program account.
Revolving Funds – Includes the credit reform financing account used to record cash flows associated with
the Commission’s spectrum auction loan program.

Deposit Funds – Includes monies being held for spectrum auctions, ITS, and regulatory fees. Deposit
funds are not available for use by the Commission unless they are properly identified or reclassified as
Commission funds. Otherwise, these funds are returned to the depositor or transferred to the Treasury.

NOTE 4 – CASH AND OTHER MONETARY ASSETS

The following summarizes Cash and Other Monetary Assets as of September 30, 2009 and 2008:


                                               FY 2009              FY 2008

Cash and Other Monetary Assets             $    68,852             $    51,942

USF and NANP contributions and third party deposits made pursuant to spectrum auction activities are
the source of funds for these balances. Third-party deposits, unless refunded, are held until 45 days after
the close of a given auction and then transferred to the Commission’s Treasury account. Interest earned
on cash and other monetary assets is reinvested, with the exception of interest earned on third-party
deposits, which is transferred to the Telecommunications Development Fund (TDF).

In FY 2009 Cash and Other Monetary Assets included $21,012 in deposits or related accrued interest
being held for spectrum auctions, $44,199 in USF contributions and related accrued interest being held
for distribution, and $3,641 in NANP deposits and related accrued interest.

In FY 2008 Cash and Other Monetary Assets included $1 in deposits or related accrued interest being
held for spectrum auctions, $46,864 in USF contributions and related accrued interest being held for
distribution, and $5,077 in NANP deposits and related accrued interest.




AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                      64
NOTE 5 - INVESTMENTS

The following summarizes Investments as of September 30, 2009 and 2008:


                                                                 Amortized                                 Market
                                     Purchase     Amortization   (Premium)    Interest    Investments,     Value
                                       Cost         Method        Discount   Receivable       Net        Disclosures

FY 2009
Intragovernmental Securities:

 Marketable Securities
 Treasury Bills                  $    5,534,226       EI         $    4,844 $         - $    5,539,070   $ 5,541,136
 Treasury Notes                         475,786       EI             (1,233)      3,070        477,623       475,891
 Total                           $    6,010,012                  $    3,611 $     3,070 $    6,016,693   $ 6,017,027

FY 2008
Intragovernmental Securities:

 Marketable Securities
 Treasury Bills                  $    5,211,180       EI         $   20,246 $         - $    5,231,426   $ 5,241,995
 Treasury Notes                         488,609       EI             (4,045)      5,619        490,183       491,554
 Total                           $    5,699,789                  $   16,201 $     5,619 $    5,721,609   $ 5,733,549

EI - Effective Interest Method

All Treasury securities, regardless of the maturity date, are reported as investments. The Commission
expects to hold all investments to maturity; therefore, no adjustments have been made to present market
values. All investments are held by USF and are also recognized as part of earmarked funds in Note 19.

The cash receipts collected from the public for the Universal Service Fund are used to purchase federal
securities. Treasury securities are an asset to the Universal Service Fund and a liability to the U.S.
Treasury. Because the Universal Service Fund and the U.S. Treasury are both parts of the Government,
these assets and liabilities offset each other from the standpoint of the Government as a whole. For this
reason, they do not represent an asset or a liability in the U.S. Government-wide financial statements.

Treasury securities provide the Universal Service Fund with authority to draw upon the U.S. Treasury to
make future benefit payments or other expenditures. When the Universal Service Fund requires
redemption of these securities to make expenditures, the Government finances those expenditures out of
accumulated cash balances by raising taxes or other receipts, by borrowing from the public or repaying
less debt, or by curtailing other expenditures. This is the same way that the Government finances all other
expenditures.




AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                                 65
NOTE 6 – ACCOUNTS RECEIVABLE, NET

The following summarizes Accounts Receivable, Net as of September 30, 2009 and 2008:

                                              Intragovernmental                        Public               Total
FY 2009
 Gross Accounts Receivable                        $         889            $           1,172,675        $ 1,173,564
 Allowance for Doubtful Accounts                  (           -)               (         408,832)       ( 408,832)
Net Accounts Receivable                           $         889                $         763,843        $ 764,732

FY 2008
 Gross Accounts Receivable                        $         2,731              $        1,297,076       $  1,299,807
 Allowance for Doubtful Accounts                  (             -)                 (      405,970)          (405,970)
Net Accounts Receivable                           $         2,731              $          891,106        $   893,837

Accounts receivable are recorded net of any related allowance for doubtful accounts. The Commission’s
portion is determined by applying predetermined percentages against the respective date the receivable
was established. The current formula for the Commission’s allowance is 25% for receivables 91-180
days outstanding, 75% for those 181-365 days outstanding, and 100% for anything greater than 365 days
outstanding. An additional analysis of higher dollar value receivables is also performed on individual
account balances. The USF portion is determined by calculating an estimated general allowance for
doubtful accounts receivable. The general allowance is calculated by multiplying the receivable amounts
by the percentage of the estimated uncollectible amount as determined by a review of historical collection
rates by type of receivable.

The Notice of Apparent Liabilities (NAL) receivables represent notifications of possible forfeitures,
subject to final determination. The NAL receivables are included under the Forfeitures category in the
table below. While these receivables are included on the Treasury Report on Receivables at the request of
Treasury, the ability to collect these receivables is not determined until a final judgment is issued. A
100% allowance is made for all NAL receivables. Similarly, the Commitment Adjustment (COMAD)
for Schools and Libraries audit receivables are subject to appeal and are not considered final until the
appeals period has lapsed or a final determination has been issued. The COMAD audit receivables for
Schools and Libraries have a 74% allowance in FY 2009 and an 86% allowance in FY 2008.


                                                 FY 2009                                              FY 2008

                                 Accounts                                               Accounts
                                Receivable      Allowance            Net                Receivable   Allowance        Net

USF                             $   936,300     $ (218,481) $        717,819           $ 1,043,273   $ (198,862) $    844,411
COMAD - Schools and Libraries       104,818        (77,145)           27,673               115,016      (98,914)       16,102
Regulatory Fees                      29,452        (15,159)           14,293                29,498      (15,684)       13,814
Spectrum Auction                     21,246        (21,246)                -                26,089      (23,596)        2,493
Forfeitures                          69,821        (68,237)            1,584                72,410      (60,767)       11,643
Other                                11,927         (8,564)            3,363                13,521       (8,147)        5,374
Total                           $ 1,173,564     $ (408,832) $        764,732           $ 1,299,807   $ (405,970) $    893,837




AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                                           66
NOTE 7 – LOANS RECEIVABLE, NET

Under section 309(j)(3) of the Act, as amended, Congress directed the Commission to implement a
competitive bidding (auctions) system for licensing spectrum to expand economic opportunity, promote
competition, and facilitate the development and delivery of new and improved telecommunications
services to the public. Section 309(j)(4) of the Act gave the Commission certain instructions for
implementing regulations for this system, including a directive to ensure that small businesses, rural
telephone companies, and women and minority-owned businesses have an opportunity to participate in
providing spectrum-based services. The Commission can use various means to facilitate expanded
participation, including alternative payment schedules, tax certificates, bidding preferences, and other
procedures.

To address the mandate, the Commission provided installment financing in connection with its spectrum
auction events, including the C Block Broadband Personal Communications Services (PCS), F Block
PCS, Narrowband PCS, Interactive Video and Data Service (IVDS), Multichannel Distribution Service
(MDS), and 900MHz Specialized Mobile Radio (SMR). Under the installment financing program,
winning bidders were generally given five or ten years to repay their net winning bid amount (less the
down payment), with up to five-year, interest-only initial payment periods. Interest rates varied by the
type of borrower. Retention of licenses granted at auction was strictly conditioned on making full and
timely payment of amounts as they became due. The return or repossession of auctioned licenses, which
may have previously been associated with installment payment plans, does not directly or immediately
affect the amount of the outstanding debt recorded in the agency’s financial records. Outstanding debt
adjustments are subject to a separate process.

The Commission’s first auction was conducted in 1994, and starting in 1995 installment payment
mechanisms were used to finance portions of some winning bids. The Commission’s installment loan
portfolio is tracked under ten cohorts. The last active loan matured in April 2007.

As required under the FCRA of 1990, as amended, the Commission coordinates with the OMB in
developing estimation guidelines, regulations, and the criteria used in calculating the subsidy estimates
and reestimates. The most recent subsidy reestimate was completed in September 2009 for actual
performance data through August 31, 2009. The reestimate resulted in a net downward adjustment,
including interest on the reestimate, of $43,179 reported in the FY 2009 financial statements.

Direct Loans

                        Loans                                           Allowance for    Value of
                        Receivable,     Interest        Other           Subsidy Cost     Assets Related
Loan Program            Gross           Receivable      Receivables    (Present Value)   to Direct Loans

Spectrum Auctions:
   FY 2009 Bal.         $ 201,965       $   15,467      $    1,408      $   (135,251)     $     83,589

    FY 2008 Bal.        $ 210,275       $   16,511      $    1,480      $    (40,926)     $   187,340

Interest accrued on bankrupt and defaulted loans totaled $15,467 in FY 2009 and $16,511 in FY 2008.
Other Receivables is composed of outstanding late fees on the loans receivable.

Total Amount of Direct Loans Disbursed

No new loans were issued in FY 2009 or FY 2008.


AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                    67
NOTE 7 – LOANS RECEIVABLE, NET (continued)

Subsidy Expense for Direct Loans by Program and Component

Direct Loan Modifications and Reestimates:
                                             Interest Rate       Technical           Total
Loan Program           Modifications         Reestimates         Reestimates         Reestimates

Spectrum Auctions:
   FY 2009 (Net)       $         -           $          -        $   (43,179)        $     (43,179)

   FY 2008 (Net)       $         -           $          -        $    27,627         $      27,627


Schedule for Reconciling Subsidy Cost Allowance Balances

                                                                 FY 2009            FY 2008
Beginning Balance of the Subsidy Cost Allowance              $    40,926        $    190,816

Adjustments:
       Recoveries                                                 87,309                  85
       Loans written off                                          (8,137)           (193,048)
       Subsidy allowance amortization                             (4,483)             15,446
       Other                                                      62,815                   -
Ending balance before reestimates                                178,430              13,299

Subsidy reestimates:
       Technical/default reestimate                              (43,179)             27,627

Ending balance of the subsidy cost allowance                 $ 135,251          $     40,926


Administrative Expense                                            FY 2009           FY 2008

   Spectrum Auctions                                         $       3,383      $        6,426




AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                       68
NOTE 8 – OTHER ASSETS

The Commission was required by the Digital Television Transition and Public Safety Act of 2005 to
transfer the proceeds received from its competitive bidding system for recovered analog spectrum into the
Digital Television Transition and Public Safety Fund (the Fund) by June 30, 2008. At the time of transfer
and through September 30, 2008, there were $17,177,707 in proceeds that had not been earned by the
Federal government because the licenses related to these proceeds had not been granted. As the custodian
for this spectrum, the Commission retained a deferred revenue liability to the public for this amount in the
event that any of these proceeds are required to be refunded. As an offset to the liability, the Commission
recognized an Intragovernmental Other Asset from the National Telecommunications and Information
Administration (NTIA) who held the related Fund Balance. The NTIA recorded a corresponding Other
Liability that eliminates with the Commission Other Asset for Government-wide Financial Reporting
purposes. Since September 30, 2008, the Commission has granted $16,774,557 and refunded $2,699 to
reduce the outstanding Other Asset balance down to $400,451. There is a corresponding balance of
$400,451 in Deferred Revenue at September 30, 2009 that relates to Auction #73 licenses that have not
yet been granted.

NOTE 9 – LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

The following summarizes Liabilities Not Covered by Budgetary Resources as of September 30, 2009
and 2008:
                                                              FY 2009             FY 2008
        Intragovernmental:
             Other:
                 FECA Liability                              $       561          $      480
                 GSA Real Estate Taxes                             2,095                   -
        Other:
                 Unfunded Leave                                   19,622              18,190
                 Accrued Liabilities for Universal Service       591,512             521,319
        Total liabilities not covered by budgetary resources     613,790             539,989
        Total liabilities covered by budgetary resources         870,542          17,792,008
        Total Liabilities                                    $ 1,484,332        $ 18,331,997

NOTE 10 - DEBT

                               FY 2008                          FY 2008                    FY 2009
                               Beginning       Net              Ending      Net            Ending
                               Balance         Borrowing        Balance     Borrowing      Balance

Debt to the Treasury           $ 105,914       $ 6,797          $ 112,711 $ (66,227)        $ 46,484

The Commission borrows from the Treasury for costs associated with its spectrum auction loan program.
Borrowings, pertaining to all loan cohorts, are determined by calculating the subsidy estimates and
reestimates in accordance with the FCRA of 1990, as amended.




AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                      69
NOTE 11 – OTHER LIABILITIES

The following summarizes Other Liabilities as of September 30, 2009 and 2008:

FY 2009                                        Non-Current          Current            Total
Intragovernmental
      Custodial Liability                     $          -      $     110,808      $   110,808
      Other                                              -              7,113            7,113
Total Intragovernmental                       $          -      $     117,921      $   117,921

Deferred Revenue                              $     24,920      $     503,314      $   528,234
Prepaid Contributions                                    -             57,670           57,670
Accrued Liabilities for Universal Service                -            591,512          591,512
Other                                                    -             62,778           62,778
Total Other Public                            $     24,920      $   1,215,274      $ 1,240,194


FY 2008                                        Non-Current          Current            Total
Intragovernmental
      Custodial Liability                     $          -      $     193,854      $   193,854
      Other                                              -              2,346            2,346
Total Intragovernmental                       $          -      $     196,200      $   196,200

Deferred Revenue                              $     30,509      $ 17,272,039       $ 17,302,548
Prepaid Contributions                                    -            73,179             73,179
Accrued Liabilities for Universal Service                -           521,319            521,319
Other                                                                 46,471             46,471
Total Other Public                            $     30,509      $ 17,913,008       $ 17,943,517


The Custodial Liability includes both cash collected and receivables being held for transfer to the
Treasury’s General Fund. The Commission collects the following types of custodial revenue: spectrum
auction revenue, fines and forfeitures revenue, penalty revenue on regulatory fees, ITS processing fees,
and interest revenue on auction deposits (held for TDF). Deferred revenue represents regulatory fees,
spectrum auction revenue, or contributor payments that have been received but not earned by the
Commission.

Prepaid Contributions include USF and NANP contribution overpayments that may be refunded or used
to offset future payments. Accrued Liabilities for Universal Service represent liabilities recorded by the
USF for anticipated subsidies in the High Cost, Low Income, and TRS programs. The obligation for
these subsidies is not recognized until payment files are approved in the subsequent month. Remaining
Other Liabilities primarily represent anticipated payments for services received, but not billed and
Deposit/Unapplied Liability which represents upfront deposits made by auction bidders as well as funds
received that are being held until proper application is determined.




AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                        70
NOTE 12 - LEASES

Operating Leases

The Commission has operating leases for rental of office space. As a Federal agency, the Commission is
not liable for any lease terms beyond one year. The Commission anticipates that space levels consistent
with FY 2009 will be required for the next five years and has estimated space payments consistent with
the schedule below. No estimates beyond five years have been provided because of the cancelable nature
of the agreements.

Anticipated lease requirements are as follows:

        Fiscal Year                              Building
            2010                            $     45,229
            2011                                  46,238
            2012                                  47,272
            2013                                  48,333
            2014                                  49,421
    Total Future Lease Payment              $    236,493

NOTE 13 – COMMITMENTS AND CONTINGENCIES

The Commission, USAC, and the Department of Justice are investigating several cases and prosecuting
others related to disbursements of USF funds from the Schools and Libraries and the High Cost and Low
Income programs, which might result in future proceedings or actions. Similarly the Commission,
NECA, and the Department of Justice are investigating several cases related to the TRS funds. The
complexity of these actions precludes management from estimating the total amount of recovery that may
result from these actions.

The Commission is a party in various administrative proceedings, legal actions, and claims brought by or
against the agency. In addition, several ongoing bankruptcy proceedings are related to the loan portfolio.
In the opinion of Commission management, the ultimate resolution of proceedings, actions and claims
will not materially affect the Commission’s financial position or results of operations.

The Commission has examined its obligations related to canceled authority and believes it has no
outstanding commitments requiring future resources.

In September 2007, the National Treasury Employees Union (NTEU) filed a grievance with the
Commission under the Federal Labor Standards Act (FLSA) alleging that certain FCC bargaining unit
employees were not appropriately compensated for overtime work. The monetary impact of the grievance
at this time is not measurable.




AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                     71
NOTE 14 – INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE

Intragovernmental costs primarily represent interest expense paid by the Commission on outstanding
credit reform borrowing. Additional amounts are also recognized for goods and services purchased by the
Commission from other Federal agencies.

Program Costs - FY 2009
                Program                 Intragovernmental        Public                Total
Broadband                               $           9,518   $          21,860    $           31,378
Competition                                        29,311          8,190,482              8,219,793
Spectrum                                           31,374             122,868               154,242
Media                                              25,488             139,729               165,217
Public Safety and Homeland Security                10,369               23,768               34,137
Modernize the FCC                                  14,525               37,994               52,519
Total                                   $         120,585   $      8,536,701     $        8,657,286

Program Earned Revenue - FY 2009
                Program                 Intragovernmental        Public                Total
Broadband                               $             -    $           34,791    $              34,791
Competition                                           -               114,125                  114,125
Spectrum                                            5,729             131,489                  137,218
Media                                                 -                95,437                   95,437
Public Safety and Homeland Security                  (166)             31,361                   31,195
Modernize the FCC                                     -                49,334                   49,334
Total                                   $           5,563 $           456,537    $             462,100

Program Costs - FY 2008
                Program                 Intragovernmental        Public                Total
Broadband                               $           6,069   $          15,718    $           21,787
Competition                                        28,618          7,889,451              7,918,069
Spectrum                                           47,898             150,947               198,845
Media                                              14,543              38,825                53,368
Public Safety and Homeland Security                10,110               22,875               32,985
Modernize the FCC                                  12,638               38,146               50,784
Total                                   $         119,876   $      8,155,962     $        8,275,838

Program Earned Revenue - FY 2008
                Program                 Intragovernmental        Public                Total
Broadband                               $             -     $          25,109    $              25,109
Competition                                           -               119,669                  119,669
Spectrum                                           10,112             144,460                  154,572
Media                                                 593               59,124                  59,717
Public Safety and Homeland Security                 1,287               35,817                  37,104
Modernize the FCC                                     -                 55,920                  55,920
Total                                   $          11,992   $         440,099    $             452,091




AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                     72
NOTE 15 – APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED: DIRECT vs.
REIMBURSABLE OBLIGATIONS

The following summarizes Apportionment Categories of Obligations     Incurred for the years ended
September 30, 2009 and 2008:
                                        FY 2009                             FY 2008
                                 Budgetary    Non-Budgetary          Budgetary   Non-Budgetary
Direct
     Category A                $     428,416 $            -          $   399,995 $              -
     Category B                      824,764        123,440              654,178           13,678
     Exempt from Apportionment     8,067,940              -            8,384,305                 -
Total Direct                   $ 9,321,120 $        123,440          $ 9,438,478 $         13,678

Reimbursable
    Category A                    $       1,740   $             -    $      2,361   $            -

Category A – Apportioned by Quarter
Category B – Apportioned by Purpose

NOTE 16 – TERMS OF BORROWING AUTHORITY USED

Maturity Dates :                       FY 2009                FY 2008
September 30, 2009                    $      -              $     543
September 30, 2010                           -                      1
September 30, 2011                      63,745                  6,253
Total Borrowing Authority Used        $ 63,745              $   6,797

The Commission used $63,745 in borrowing authority for the year ended September 30, 2009. This
authority was used to extend the maturity dates of the debt owed to BPD. In FY 2008 the Commission
used borrowing authority of $6,797 to cover interest expense. The Commission anticipates that this
borrowing will be repaid from proceeds generated from the recovery of funds related to bankrupt and
defaulted loans.




AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                              73
NOTE 17 – LEGAL ARRANGEMENTS AFFECTING USE OF UNOBLIGATED BALANCES

Pursuant to Public Law 111-8, offsetting collections received in excess of $341,875 in FY 2009 shall not
be available for obligation and any remaining offsetting collections from prior years collected in excess of
the amount specified for collection in each such year otherwise becoming available on October 1, 2008,
are not available for obligation.

NOTE 18 – EXPLANATION OF DIFFERENCES BETWEEN THE STATEMENT OF
BUDGETARY RESOURCES (SBR) AND THE BUDGET OF THE U.S. GOVERNMENT

There were no material differences between the Statement of Budgetary Resources for FY 2008 and the
amounts presented in the 2010 President’s Budget. The FY 2011 Budget of the United States Government
(President’s Budget) with actual numbers for FY 2009 has not been published. Pursuant to 31 USC §
1105, the Budget of the United States Government will be released the first Monday in February, and will
be available at the following website: http://www.whitehouse.gov/omb.

NOTE 19 – EARMARKED FUNDS

U.S. telecommunications companies are obligated to make contributions to the Universal Service Fund
and the Telecommunications Relay Service Fund. These contributions are accounted for in the Budget of
the U.S. Government as the “Universal Service Fund.” The Commission currently recognizes the
contributions collected under the USF Program as non-exchange revenue on its Statement of Changes in
Net Position, and the related disbursements as program expenses on the Statement of Net Cost.




AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                      74
NOTE 19 – EARMARKED FUNDS (continued)

The following summarizes the significant assets, liabilities, and related costs incurred with managing the
USF Program as of September 30, 2009 and 2008:

                                                    FY 2009                  FY 2008
Balance Sheet
ASSETS
Investments                                   $          6,016,693     $          5,721,609
Cash and other monetary assets                              44,199                   46,864
Acounts receivable, net                                    757,347                  862,058
General property, plant, and equipment, net                 15,244                   10,723
Other assets                                                 7,677                   15,031
  Total assets                                $          6,841,160     $          6,656,285

LIABILITIES
Accounts payable                              $             77,954     $            77,125
Deferred revenue                                            62,875                  57,622
Prepaid contributions                                       57,642                  73,145
Accrued liabilities                                        591,512                 521,319
Total liabilities                             $            789,983     $           729,211

Cumulative results of operations              $          6,051,177     $          5,927,074

 Total liabilities and net position           $          6,841,160     $          6,656,285

Statement of Net Cost
Gross program costs                           $          8,116,825     $          7,811,085
Less earned revenues                                             -                        -
Net cost of operations                        $          8,116,825     $          7,811,085

Statement of Changes in Net Position
Net position beginning of period              $          5,927,074     $          5,193,576

Non-exchange revenue                                     8,240,928                8,566,063
Transfers in/out without reimbursement                           -                  (21,480)
Net cost of operations                                   8,116,825                7,811,085
Change in net position                                     124,103                  733,498

Net position end of period                    $          6,051,177     $          5,927,074




AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                     75
NOTE 20 – UNDELIVERED ORDERS AT THE END OF THE PERIOD

The amount of budgetary resources obligated for undelivered orders totaled $3,058,208 as of September
30, 2009 and $3,501,751 as of September 30, 2008.

NOTE 21 – RECONCILIATION OF NET COST OF OPERATIONS (PROPRIETARY) TO BUDGET
(FORMERLY THE STATEMENT OF FINANCING)

As of September 30, 2009 and 2008:
                                                                                               FY 2009           FY 2008

Budgetary Resources Obligated:
 Obligations incurred                                                                      $    9,446,300    $    9,454,517
 Less: spending authority from offsetting collections and recoveries                            1,709,175         1,464,056
 Obligations net of offsetting collections and recoveries                                       7,737,125         7,990,461
 Less: offsetting receipts                                                                        189,641           216,686
 Net obligations                                                                                7,547,484         7,773,775
Other Resources                                                                                  (116,467)           35,683
Resources Used to Finance Items not Part of the Net Cost of Operations:
 Change in Undelivered Orders                                                                     443,543          (142,273)
 Resources that fund expenses recognized in prior periods                                             -             (32,947)
 Budgetary offsetting collections and receipts that do not affect net cost of operations          337,748           196,091
 Resources that finance the acquisition of assets                                                 (25,321)          (18,373)
 Other                                                                                            (40,873)          (39,425)
Components of the Net Cost of Operations That Will Not Require or Generate
Resources in the Current Period:
 Increase in annual leave liability                                                                 1,432              1,004
 Upward/Downward reestimates of credit subsidy (+ /-)                                             (43,179)            27,627
 Increase in exchange revenue receivable from the public                                              351                435
 Depreciation and amortization                                                                     12,174             13,911
 Other (+/-)                                                                                       77,708              6,928

Net Cost of Operations                                                                     $    8,194,593    $    7,822,436




AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                                       76
Required Supplementary Information

REQUIRED SUPPLEMENTARY INFORMATION – STATEMENT OF BUDGETARY
RESOURCES
For the Year Ended September 30, 2009
(Dollars in thousands)

The OMB Circular No. A-136, “Financial Reporting Requirements,” requires additional disclosure of an
entity's budgetary information by major budgetary account if the information was aggregated for
presentation purposes on the Statement of Budgetary Resources. The major budget accounts include the
Commission and the Universal Service Fund. Reflected in the chart below are the major accounts of the
Commission that are aggregated and presented in the September 30, 2009 Combined Statement of
Budgetary Resources.



FY2009                                                      S&E             Credit       Auctions         USF              Total
Budgetary Resources:

Unobligated balances - brought forward, October 1       $    30,739     $   63,482       $  2,488     $    2,239,231 $ 2,335,940
Recoveries of prior year unpaid obligations                   5,935             33          1,689          1,110,547    1,118,204
Budget authority                                            397,644        263,617         85,000          8,388,016    9,134,277
Nonexpenditure transfers, net, anticipated and actual        90,660              -              -                  -       90,660
Temporarily not available pursuant to Public Law            (54,185)             -              -                  -      (54,185)
Permanently not available                                       (75)      (129,972)        (1,089)                 -     (131,136)
Total budgetary resources                               $   470,718     $ 197,160        $ 88,088     $   11,737,794 $ 12,493,760

Status of Budgetary Resources:

Obligations incurred                                    $   429,184     $    177,815     $ 84,953     $    8,754,348 $ 9,446,300
Unobligated balances - available                             39,981            6,961            -          2,960,523    3,007,465
Unobligated balances - not available                          1,553           12,384        3,135             22,923       39,995
Total, status of budgetary resources                    $   470,718     $    197,160     $ 88,088     $   11,737,794 $ 12,493,760

Change in Obligated Balance:

Total unpaid obligated balance, net brought Forward     $     52,607    $       2,153    $ 26,578     $    3,507,421 $      3,588,759
Obligations incurrred, net                                   429,184          177,815       84,953         8,754,348        9,446,300
Gross outlays                                               (408,532)        (178,816)     (80,535)       (8,091,576)      (8,759,459)
Recoveries of prior year unpaid obligations, actual           (5,935)             (33)      (1,689)       (1,110,547)      (1,118,204)
Change in uncollected customer payments from
 Federal sources                                                 15                 -           -                  -              15
Total, Unpaid obligated balance, net, end of period     $    67,339     $       1,119    $ 29,307     $    3,059,646     $ 3,157,411

Net Outlays

Gross outlays                                           $    408,532    $  178,816       $ 80,535     $    8,091,576 $     8,759,459
Offsetting collections                                      (343,529)     (148,107)        (85,000)          (14,350)       (590,986)
Distributed offsetting receipts                             (133,006)            -               -           (56,635)       (189,641)
Net outlays                                             $    (68,003)   $   30,709       $ (4,465)    $    8,020,591 $     7,978,832




AGENCY FINANCIAL REPORT – FISCAL YEAR 2009                                                                                  77
